   March 31, 2004




Human Capital
DoD Implementation of the Voting
Assistance Program
(D-2004-065)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CONUS                 Continental United States
FPCA                  Federal Post Card Application
FVAP                  Federal Voting Assistance Program
FWAB                  Federal Write-In Absentee Ballot
IVAO                  Installation Voting Assistance Officer
OIG DoD               Office of the Inspector General of the Department of Defense
SVAO                  Service Voting Action Officer
USAREUR               U.S. Army, Europe, and Seventh Army
USD(P&R)              Under Secretary of Defense for Personnel and Readiness
UVAO                  Unit Voting Assistance Officer
VAO                   Voting Assistance Officer
VIMS                  Voting Information Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2004-065                                                         March 31, 2004
   (Project No. D2003LF-0188)

                                DoD Implementation of the
                                Voting Assistance Program

                                   Executive Summary

Who Should Read This Report and Why? This report should be read by DoD civilian
and military personnel who are responsible for the administration, oversight, and
implementation of the Federal Voting Assistance Program and the Services’ voting
assistance programs.

Background. Section 1566, chapter 80 of title 10, United States Code, requires the
Inspector General of the Department of Defense to annually assess each Service’s
compliance with the Uniformed and Overseas Citizens Absentee Voting Act (the Act),
DoD regulations, the Federal Voting Assistance Program, and other requirements of law
regarding voting by members of the Armed Forces. Additionally, section 1566 requires
the Inspectors General of each Service to conduct annual reviews of the effectiveness and
compliance of voting assistance programs. Our prior reports have discussed the
implementation and effectiveness of the Services’ voting assistance programs in years of
regularly scheduled elections for Federal offices (2000 and 2002). This is our first report
on the effectiveness of DoD’s voting assistance program during a year when elections for
Federal offices were not regularly scheduled.

The Office of the Under Secretary of Defense for Personnel and Readiness is responsible
for the policy and oversight functions of the DoD voting assistance program. The goals
of the Federal Voting Assistance Program are to inform and educate absentee voters of
their right to vote, to foster voting participation, and to protect the integrity of the voting
process. As of September 2003, there were about 266,000 active duty personnel
permanently stationed overseas and about 117,000 dependents (age 18 and over) who
were covered by the Act. There were also about 1.1 million active duty personnel and
656,000 dependents (age 18 and over) in the continental United States (CONUS) and its
territories who were potential absentee voters. Because of deployments, many of the
CONUS-based military active duty personnel may be overseas when they need voting
assistance. DoD faces the same challenges as the entire United States in its attempt to
increase voting participation, particularly among the younger population of eligible
voters. DoD challenges are magnified because of the worldwide dispersion of active
duty personnel.

Results. The Federal Voting Assistance Program Office continued to provide a variety
of valuable resources and assistance to voting assistance officers and uniformed absentee
voters in 2003. However, opportunities exist to improve the DoD voting assistance
program, as evidenced by the 3 partially effective and 7 ineffective programs at the
10 installations we visited. Additionally, 58 percent of the respondents who completed
our questionnaire did not know who their unit voting assistance officer was. The Under
Secretary of Defense for Personnel and Readiness needs to expedite revisions to DoD
Directive 1000.4, “Federal Voting Assistance Program,” June 3, 2002, and the issuance
of the 2004-2005 DoD Voting Plan to ensure that revisions and enhancements to the DoD
voting assistance program will benefit uniformed absentee voters during the 2004 Federal
elections. Although the Air Force voting assistance program was not fully compliant
with DoD guidance, it generally continued to maintain a program that was more effective
than the other Services. The Navy and the Marine Corps had implemented or planned
improvements to their voting assistance programs. However, several problems identified
in our reports after the 2000 and 2002 elections continued to exist in 2003 for all the
Services. The Services must provide command emphasis at all levels of command and
need to improve oversight of program implementation in order to ensure:

       •   that voting assistance programs are consistently effective, to include voter
           awareness and understanding of the absentee ballot process; and

       •   that unit voting assistance officers are appointed and properly trained in a
           timely manner to assist uniformed absentee voters.

Updating Service voting assistance program guidance, establishing full-time Service
Voting Action Officers, and developing a reporting system on compliance of voting
assistance programs are steps that will help to ensure that DoD has an effective voting
assistance program. Additionally, the Services should ensure that junior enlisted
personnel and first-time voters are aware of absentee voting procedures and that the
Service Inspectors General provide voting assistance program inspection results to their
Service Voting Action Officer on a continuing basis.

Frequent deployments, increased operational requirements, and worldwide commitments
are compelling reasons for DoD to improve the effectiveness of its program. As stated in
our last report, it is imperative that uniformed absentee voters be given the knowledge
and tools necessary to exercise their constitutional right to vote, if they choose to do so.
See the Finding section of the report for the detailed recommendations.

Management Comments and Evaluation Response. The Under Secretary of Defense
for Personnel and Readiness and the Navy did not provide comments on the draft report.
We request that the Under Secretary and the Navy provide comments by May 31, 2004.

Although the Army did not specifically concur or nonconcur with individual
recommendations, it provided examples of how the Army has been responsive in efforts
to improve the voting assistance program. Additionally, U.S. Army, Europe, and
Seventh Army provided details of its 2004 voting campaign to ensure that all military
personnel, DoD civilians, and their dependents are provided information on voting
registration and participation. The campaign and supplemental voting action plan
provide extensive guidance for implementing the program. The package demonstrates
senior military support for strengthening the Army voting assistance program in Europe.

The Army comments are partially responsive. The Army needs to provide additional
details on its 2004-2005 voting assistance program implementing instructions, its plans to
monitor voting assistance program compliance, and its plans to ensure junior enlisted
personnel and other first-time voters are provided voting assistance information. We also
request that the Army reconsider its position and provide additional details on:

       •   the timely reissuance of its 1981 voting regulation,

       •   the establishment of the Service Voting Action Officer as a full-time position,
           and

                                             ii
       •   the dissemination of voting inspection results to the Service Voting Action
           Officer on a continuing basis.

The Air Force concurred with all recommendations except the recommendation to
establish the Service Voting Action Officer as a full-time position. The Air Force stated
that the voting assistance program is run by two military personnel, but it will consider
shifting the Service Voting Action Officer responsibilities to a civilian employee as
additional duties.

The Air Force comments are partially responsive and additional comments are required.
The Air Force needs to provide additional details on how it plans to monitor voting
assistance program compliance, the rationale for its decision concerning civilianizing its
Service Voting Action Officer position, and how it plans to emphasize the Air Force
voting assistance program at all levels of command. We also request that the Air Force
reconsider its position and provide additional details on establishing the Service Voting
Action Officer as a full-time position.

The Marine Corps concurred with all recommendations except the recommendation to
have the Commandant of the Marine Corps issue memorandums reemphasizing the
program. However, the Marine Corps referred to specific senior-level messages sent to
all Marines in late 2003 and discussed plans for a June 2004 message from the
Commandant of the Marine Corps.

The Marine Corps comments are generally responsive, but additional comments are
required on its plans to monitor voting assistance program compliance and how it will
ensure voter assistance training is provided to all junior enlisted and other first-time
voters.

We request that management provide comments on the final report recommendations by
May 31, 2004, as indicated in Table 5 (page 31). See the Finding section for a discussion
of management comments (page 23) and the Management Comments section of the
report for the complete text of management comments.

Service Inspectors General Reports. The Army Inspector General reported that major
commands were complying with instructions to conduct an annual assessment of the
Army voting assistance program and stated that 67 percent of the major commands
assessed were in compliance with instructions provided (Appendix E). The Naval
Inspector General reported that the Navy voting assistance program for calendar
year 2003 was found lacking (Appendix F). The Air Force Inspector General reported
that the overall assessment of the Air Force’s compliance with DoD Directive 1000.4,
related Air Force instructions, and the Act is satisfactory (Appendix G). The Marine
Corps Inspector General reported that the Marine Corps has an effective voting assistance
program and, with the exception of reported discrepancies, complies with DoD Directive
1000.4 and the Act (Appendix H).




                                            iii
Table of Contents

Executive Summary                                               i

Commendable Actions                                            1

Background                                                     1

Objectives                                                     4

Limitations on Use of Report Data                              5

Finding
     Implementation of the DoD Voting Assistance Program        6

Appendixes
     A. Scope and Methodology                                  32
         Management Control Program Review                     34
         Prior Coverage                                        35
     B. Uniformed Absentee Voter Questionnaire                 37
     C. Commands and Installations Visited                     40
     D. Voting Assistance Program Best Practices               41
     E. Department of the Army Inspector General Report        43
     F. Department of the Navy Inspector General Report        46
     G. Department of the Air Force Inspector General Report   49
     H. Marine Corps Inspector General Report                  55
     I. Report Distribution                                    59

Management Comments
     Department of the Army                                    61
     U.S. Army, Europe, and Seventh Army                       64
     Department of the Air Force                               71
     Marine Corps                                              73
Commendable Actions
    The Office of the Inspector General of the Department of Defense (OIG DoD)
    evaluation team conducted unannounced visits at 10 locations to assess the
    effectiveness and compliance of voting assistance programs during 2003. The
    unannounced nature of the visits presented administrative challenges to
    accomplish the evaluation; however, we generally received excellent cooperation
    and support for our effort. For example, at Royal Air Force Lakenheath, the OIG
    DoD team arrived on the same day as 160 inspectors from U.S. Air Forces in
    Europe. The commander of the 48th Fighter Wing and his staff recognized the
    importance of the voting assistance program and readily accommodated our
    request for access to installation personnel, even though those personnel were
    involved in other inspections. We appreciate the support provided by the
    Services and installation personnel.


Background
    This evaluation was required by Section 1566, chapter 80 of title 10, United
    States Code (10 U.S.C. 1566), which states:

               (c) ANNUAL         EFFECTIVENESS          AND  COMPLIANCE
               REVIEWS.—(1) The Inspector General of each of the Army, Navy,
               Air Force, and Marine Corps shall conduct—

                   (A) an annual review of the effectiveness of voting assistance
                   programs; and
                   (B) an annual review of the compliance with voting assistance
                   programs of that armed force.

               (2) Upon the completion of each annual review under paragraph (1),
               each Inspector General specified in that paragraph shall submit to the
               Inspector General of the Department of Defense a report on the results
               of each such review. Such report shall be submitted in time each year
               to be reflected in the report of the Inspector General of the Department
               of Defense under paragraph (3).

               (3) Not later than March 31 each year, the Inspector General of the
               Department of Defense shall submit to Congress a report on—

                   (A) the effectiveness during the preceding calendar year of voting
                   assistance programs; and
                   (B) the level of compliance during the preceding calendar year
                   with voting assistance programs of each of the Army, Navy, Air
                   Force, and Marine Corps.

               INSPECTOR GENERAL ASSESSMENTS.—(1)                 The Inspector
               General of the Department of Defense shall periodically conduct at




                                             1
           Department of Defense installations unannounced assessments of the
           compliance at those installations with—

               (A) the requirements of the Uniformed and Overseas Citizens
               Absentee Voting Act (42 U.S.C. 1973ff et seq.);
               (B) Department of Defense regulations regarding that Act and the
               Federal Voting Assistance Program carried out under that Act;
               and,
               (C) other requirements of law regarding voting by members of the
               armed forces.

           (2) The Inspector General shall conduct an assessment under
           paragraph (1) at not less than 10 Department of Defense installations
           each calendar year.

Federal Voting Assistance Program. The Uniformed and Overseas Citizens
Absentee Voting Act (the Act) establishes Federal, State, and territory
requirements to allow certain groups of citizens to register and vote absentee in
elections for Federal offices. The Act states that the President shall designate the
head of an Executive department to have primary responsibility for Federal
functions of the Act. On June 8, 1988, the President issued Executive Order
12642, “Designation of the Secretary of Defense as the Presidential Designee.”
The Federal Voting Assistance Program (FVAP) Office was assigned
responsibility and authority to carry out the Act.

The goals of the FVAP are to inform and educate absentee voters of their right to
vote, to foster voting participation, and to protect the integrity of the voting
process. The FVAP Office has many responsibilities, such as establishing and
maintaining liaison with officials of the State legislatures and with State and local
government officials and working with those officials to implement the Act. The
FVAP Office also prescribes an official post card form to be used by absentee
voters for registering to vote; distributes material on State absentee voting
procedures; and, after Presidential elections, reports on the effectiveness of the
voting assistance effort. States and territories have enacted laws allowing citizens
to register and vote absentee in State and local elections. In December 2003, the
FVAP Office was transferred from the Director of Administration and
Management to the Defense Human Resources Activity.

Absentee voters are those individuals absent from their place of legal residence
where they are otherwise qualified to vote. U.S. citizens covered by the Act are
“absent uniformed services voters” and “overseas voters.” This report includes
coverage of DoD absent uniformed Services voters. We use the term “uniformed
absentee voters” to include any member of the Army, the Navy, the Air Force, or
the Marine Corps on active duty who, by reason of such active duty, is absent
from the place of legal residence where the member is otherwise qualified to vote.
We have also included in that term the spouse or dependents of those active duty
members who, by reason of the active duty of the member, are absent from the
place of legal residence where they are otherwise qualified to vote. The
evaluation did not cover other uniformed Service members, such as merchant
marines, who are also covered by the Act.



                                        2
    As of September 2003, there were about 266,000 active duty personnel
    permanently stationed overseas and about 117,000 dependents (age 18 and over)
    who were covered by the Act. There were also about 1.1 million active duty
    personnel and about 656,000 dependents (age 18 and over) in the continental
    United States (CONUS) and its territories who were potential uniformed absentee
    voters. Because of deployments, many of the CONUS-based military active duty
    personnel may be overseas when they need voting assistance.


DoD and Service Policies and Procedures
    The Act allows uniformed absentee voters and overseas voters to register and vote
    by absentee ballot for Federal offices. DoD policy states that unless military
    necessity precludes it, uniformed absentee voters shall have an opportunity to
    register and vote in any general election for which they are eligible. The DoD
    policy applies to all elections for Federal, State, and local office.

    DoD Guidance. DoD Directive 1000.4, “Federal Voting Assistance Program,”
    June 3, 2002, assigns the Under Secretary of Defense for Personnel and Readiness
    (USD[P&R]) policy and oversight functions of the FVAP. DoD Directive 1000.4
    applies to the Office of the Secretary of Defense, the Services (including the
    Coast Guard by agreement with the Department of Homeland Security [formerly
    under the Department of Transportation]), the Joint Staff, the combatant
    commands, the OIG DoD, the Defense agencies, DoD field activities, and all
    other organizational entities within the Department of Defense. DoD Directive
    1000.4 also applies to the commissioned corps of the Public Health Service and
    the National Oceanic and Atmospheric Administration.

    In addition to DoD Directive 1000.4, Deputy Secretary of Defense memorandum,
    “Federal Voting Assistance Program—2002-2003,” March 26, 2002, announced
    the “DoD Voting Plan for 2002-2003” (DoD Voting Plan). Requirements of DoD
    Directive 1000.4 include command support at all levels for the FVAP, the
    designation of voting assistance officers (VAOs) at all levels of command, and
    in-hand delivery of the Federal Post Card Application (FPCA) each calendar year.
    The DoD Directive also requires the Inspectors General of the Services to
    annually include the command voting assistance program as an item for specific
    review at every organizational level. The DoD Voting Plan addressed
    implementation of the Act and dissemination of information, guidance, and tasks
    related to the voting assistance program. The DoD Voting Plan further required
    the Services to develop comprehensive command-wide voting awareness and
    assistance programs and voting action plans for the 2002-2003 elections.

    Army Guidance. Army Regulation 608-20, “Voting by Personnel of the Armed
    Forces,” August 15, 1981, establishes policy, responsibilities, and procedures for
    Army implementation of the FVAP. The Regulation provides basic voting
    information needed by Armed Forces personnel, civilians officially attached with
    the Armed Forces overseas, and their dependents. For 2002-2003, the Army
    issued implementing instructions that discussed absentee voting procedures and
    responsibilities for the Army. The Army Adjutant General memorandum,
    “Instructions for Conducting the 2000-2002 Army Voting Assistance Program,”
    June 13, 2002, includes instructions for implementing the Army voting assistance


                                        3
    program and for maximizing opportunities to encourage every eligible voter to
    register and vote. The instructions establish and assign specific responsibilities to
    the Adjutant General, commanders of major Army commands, installation
    commanders, and unit commanders down to company and detachment levels.
    The Army Adjutant General memorandum and implementing instructions were
    the 2002-2003 Army voting action plan required by the DoD Voting Plan.

    Navy Guidance. Office of the Chief of Naval Operations Instruction 1742.1,
    “Navy Voting Assistance Program,” August 14, 2002, establishes policy and
    assigns responsibilities. The Instruction states that the Navy voting assistance
    program shall be administered to ensure that eligible voters receive information
    about registration procedures and voter materials pertaining to scheduled
    elections. The Navy Instruction assigns voting assistance responsibilities to every
    level of command. In addition to the Instruction, Bureau of Naval Personnel
    Notice 1742, “CY-2002 Navy Voting Assistance Program,” March 25, 2002,
    announced the Navy voting assistance plan. The goals of the plan were to
    provide eligible voters with information on the Navy voting assistance program
    and to achieve 100 percent registration of eligible Navy voters. The Navy did not
    issue a voting assistance plan for 2003.

    Air Force Guidance. Air Force Instruction 36-3107, “Voting Assistance
    Program,” September 10, 2003, implements the Act and informs personnel about
    voting opportunities, including absentee voting. The Air Force Instruction
    establishes specific voting assistance responsibilities at various levels of
    command, from the major command down to the unit voting counselor. In
    addition to Instruction 36-3107, the “Air Force Voting Plan 2002-03,” undated,
    was issued with a goal of providing assistance for all elections, emphasizing the
    period before the November 5, 2002, general election. The plan reiterated
    specific responsibilities for Air Force headquarters, commanders of major
    commands and installations, installation personnel directors, and VAOs at each
    level of command.

    Marine Corps Guidance. Marine Corps Order 1742.1A (Change 1), “Voter
    Registration Program,” October 1, 2003, provides guidance and assigns
    responsibility for the implementation of the Marines Corps voter registration
    program to commanding officers at all echelons to assist Marines, their family
    members, and certain others in exercising their right to vote. Additionally,
    “United States Marine Corps Voting Action Plan 2002-2003,” undated,
    implemented the Federal functions of the Act, disseminated information and
    guidance, and discussed tasks related to the voting assistance program. The plan
    independently set forth guidance and does not reference Marine Corps
    Order 1742.1A.


Objectives
    The primary objective of our evaluation was to assess the effectiveness of the
    DoD voting assistance program and compliance with the Act. Specifically, we
    evaluated FVAP Office compliance with the Act and other requirements of law
    regarding voting by members of the Armed Forces. We also evaluated the


                                          4
     Services’ compliance with DoD guidance for implementing the Act. In addition,
     we reviewed the adequacy of management controls as they applied to the overall
     evaluation objective. Our prior reports have discussed the implementation and
     effectiveness of the Services’ absentee voting assistance programs in years of
     regularly scheduled elections for Federal offices (2000 and 2002). This is our
     first report on the effectiveness of DoD’s voting assistance program during a year
     when elections for Federal offices were not regularly scheduled. See Appendix A
     for a discussion of the scope and methodology, the review of the management
     control program, and prior coverage.


Limitations on Use of Report Data
     At the locations visited, we administered questionnaires and held discussion
     groups with active duty and dependent personnel to determine their level of
     awareness and understanding of the absentee voting process. The locations we
     visited and the individual participants were not randomly selected; therefore,
     results cannot be statistically projected to the universe. The questionnaire results
     are descriptive and are not intended to be used for comparative purposes.
     Although the uniformed absentee voter questionnaires used in this report are
     generally similar to the questionnaires used in our two previous evaluations, the
     numerical results from the questionnaires in those evaluations should not be
     compared with the results in this report. The questionnaire and discussion group
     responses reflect the perceptions of uniformed absentee voters concerning the
     absentee ballot process. The accuracy of those perceptions cannot be validated.




                                           5
            Implementation of the DoD Voting
            Assistance Program
            The FVAP Office continued to provide a variety of valuable resources and
            assistance to unit voting assistance officers (UVAOs) and uniformed
            absentee voters in 2003. However, opportunities exist to improve the
            DoD voting assistance program, as evidenced by the 3 partially effective
            and 7 ineffective programs at the 10 installations we visited. Additionally,
            58 percent of the respondents who completed our questionnaire did not
            know who their UVAO was. The USD(P&R) needs to expedite revisions
            to DoD Directive 1000.4, “Federal Voting Assistance Program,”
            June 3, 2002, and the issuance of the 2004-2005 DoD Voting Plan.
            Timely issuance will ensure that revisions and enhancements to the DoD
            voting assistance program will benefit uniformed absentee voters during
            the 2004 Federal elections. Although the Air Force program was not fully
            compliant with DoD guidance, it generally continued to maintain a
            program that was more effective than the other Services. The Navy and
            the Marine Corps had implemented or planned improvements to their
            voting assistance programs. However, several problems identified in our
            reports after the 2000 and 2002 elections continued to exist in 2003 for all
            the Services. The Services must provide command emphasis at all levels
            of command and need to improve oversight of program implementation in
            order to ensure:

                   •   that voting assistance programs are consistently effective, to
                       include voter awareness and understanding of the absentee
                       ballot process; and

                   •   that UVAOs are appointed and properly trained in a timely
                       manner to assist uniformed absentee voters.

            Frequent deployments, increased operational requirements, and worldwide
            commitments are compelling reasons for DoD to improve the
            effectiveness of its program. As stated in our last report, it is imperative
            that uniformed absentee voters be given the knowledge and tools
            necessary to exercise their constitutional right to vote, if they choose to do
            so.


Assessment of the Service Voting Assistance Programs
     To assess the effectiveness of the DoD voting assistance program during 2003,
     representatives from the OIG DoD developed and administered questionnaires to
     active duty and dependent personnel that focused on an individual’s awareness
     and perceptions of the absentee voting process, the resources used to support the
     absentee voting process, the effectiveness of UVAOs, and the adequacy of FVAP
     Office voting assistance materials. The questionnaires were generally similar to
     those used in our evaluations of the 2000 and 2002 elections. The questionnaire
     for active duty and dependent personnel is in Appendix B.


                                          6
    We administered questionnaires to 1,125 uniformed absentee voters (including
    dependents) at 10 locations (see Appendix C). After completion of the
    questionnaire, the respondents participated in group discussions and were asked
    questions related to their experiences with absentee voting. We also interviewed
    the Service Voting Action Officer (SVAO) for each of the Services; installation
    voting assistance officers (IVAOs) and UVAOs at the installations visited; and
    personnel responsible for the voting assistance programs at the Service
    academies.


FVAP Office Voting Assistance Resources
    Absentee Voting. The absentee voting process can be inherently difficult
    compared with voting in person. For uniformed absentee voters, absentee voting
    requires registering, requesting a ballot, and receiving a mailed ballot—a process
    that can be complex when compared with voting in the jurisdiction where one is
    registered. The absentee voting process must be accomplished in a timely manner
    to ensure that ballots are received prior to State deadlines. To assist uniformed
    absentee voters, the FVAP Office provides valuable information and assistance to
    uniformed absentee voters, including overseas active duty personnel, DoD
    civilians, and their dependents.

    Federal Voting Assistance Program Office. The FVAP Office developed and
    provided valuable resources and assistance to absentee voters in 2003. The
    FVAP Office provides services and voting materials to:

           •   Armed Forces Recruitment Offices nationwide,

           •   military VAOs worldwide,

           •   embassy and consulate VAOs, and

           •   State and local government officials.
    Two important resources provided by the FVAP Office are the Voting Assistance
    Guide (the Guide) and various newsletters.

            Voting Assistance Guide. The Guide is the primary source of State-by-
    State information for uniformed absentee voters requesting registration and an
    absentee ballot from their jurisdiction of legal voting residence. In addition, the
    Guide contains valuable information for VAOs to help them carry out their duties.

             Newsletters. Voting Information News is a monthly newsletter that
    contains timely information on upcoming elections, a “to do” list for VAOs, and
    other essential material to help ensure continuity of election information and the
    enfranchisement of uniformed absentee voters. In addition, news releases are
    generally sent by the FVAP Office days in advance of election dates and contain
    critical procedural information on upcoming elections, including registration and
    ballot deadlines for elections for Federal office and some State elections. The
    Voting Information News is distributed by e-mail and regular mail and is available


                                         7
on the FVAP Web site (http://www.fvap.gov). News releases are distributed by
e-mail.

         Other Resources. The FVAP Office provides voting assistance and
information to uniformed absentee voters through its Web site, an information
center, and a toll-free telephone service. The FVAP Web site includes
downloadable training presentations and links to State Boards of Election, Service
voting Web sites, and other sites that are intended to assist absentee voters and
facilitate the duties of VAOs worldwide. Additional FVAP Office activities
include the production of print and broadcast voter education information and the
training of VAOs.

The FVAP FY 2003 budget was $17.4 million, which included $2.8 million for
contracting, services, and salaries and $14.6 million for the Secure Electronic
Registration and Voting Experiment (SERVE) demonstration project.

The voting demonstration project was intended to allow uniformed absentee
voters to register and to vote electronically via the Internet from anywhere in the
world. DoD will not use the voting demonstration project for actual registration
and voting during the 2004 elections, but will continue testing, certification, and
evaluation activities to assess the feasibility of the use of the Internet for absentee
registration and voting.

We recognize that uniformed absentee voters who completed our questionnaire
generally participate in Federal elections at a higher rate than the voting rates for
the total U.S. voting population, including absentee and in-person voters.
However, we believe that opportunities still exist to improve the DoD voting
assistance program. Table 1 shows 2000 and 2002 voting participation rates for
the respondents who completed our questionnaire and the U.S. voting population.

                                Table 1. Federal Election Participation Rates

                                                                  2000             2002

 Uniformed Absentee Voters1                                    55 percent2      46 percent2

 U.S. Voting Population                                        51 percent       37 percent

 1
     Respondents who completed our questionnaire.
 2
     Includes questionnaire respondents who voted in person.


We also recognize that Service voting assistance programs are emphasized in
years with regularly scheduled Federal elections. However, it is DoD policy to
encourage eligible voters to participate in elections for Federal, State, and local
office. In support of this policy, it is critical for the Services to maintain a
continuous, viable voting assistance program.




                                                        8
Opportunities Exist to Improve the DoD Voting Assistance
  Program
     Opportunities exist to improve the DoD voting assistance program, as evidenced
     by the 3 partially effective and 7 ineffective programs at the 10 installations we
     visited. Additionally, 58 percent of the respondents who completed our
     questionnaire did not know who their UVAO was.

     Expedited issuance and dissemination of DoD’s voting assistance program
     guidance is an improvement that is urgently needed. In addition, problems with
     the Service voting assistance programs that we identified after the 2000 and 2002
     elections continued to exist in 2003 and improvements are still needed. For
     example, more than half of the respondents who completed our questionnaire
     were not aware of FVAP resources and 26 percent were not aware that their
     Service had a voting assistance program. Although not fully compliant with DoD
     guidance, the Air Force generally continued to maintain a program that was more
     effective than the other Services. The Navy and the Marine Corps had
     implemented or planned improvements for their voting assistance programs.
     However, all four Services need to provide more emphasis at all levels of
     command and improve oversight of voting assistance programs. The Services
     also need to ensure consistent and effective program implementation and the
     availability of assistance for uniformed absentee voters.

     Absentee Voting Guidance. DoD Directive 1000.4, June 3, 2002, updated the
     September 6, 1996, directive concerning policy and responsibilities for the FVAP.
     In response to our report on the 2002 elections, the Principal Deputy Under
     Secretary of Defense for Personnel and Readiness stated that further guidance
     would be provided requiring that Service voting assistance regulations,
     instructions, or orders be consistent with the current DoD Directive 1000.4.

     On May 2, 2003, the Principal Deputy Under Secretary of Defense for Personnel
     and Readiness issued a memorandum, “Service Voting Assistance Regulations,
     Instructions, and Orders,” to the Secretaries of the Military Departments. The
     memorandum required review and revision of Service directives to correct
     discrepancies discussed in our report on the 2002 elections and required the
     inclusion of requirements established by the Help America Vote Act of 2002. The
     Help America Vote Act, Public Law 107-252, was signed by the President on
     October 29, 2002. The Principal Deputy Under Secretary also required that the
     Service revisions include guidance on:

            •   ensuring command support at all levels of command;

            •   publicizing the location and identity of UVAOs within each command;

            •   maintaining a directory of major command VAOs and IVAOs;

            •   establishing a UVAO minimum and maximum span of control;




                                          9
       •   ensuring thorough and timely distribution of voting materials,
           including the FPCA and Federal Write-In Absentee Ballot (FWAB);
           and

       •   conducting uniformed absentee voter training in even-numbered years.

The Principal Deputy Under Secretary required that revised Service guidance be
issued by August 2003.

In June 2003, the FVAP Office proposed revisions to DoD Directive 1000.4 to
incorporate provisions in the 2002 National Defense Authorization Act and the
Help America Vote Act. The revision, planned for issuance in September 2003,
also included proposed changes for the Services to establish an installation and
major command VAO network, a communications capability for rapid
dissemination of voting information, and a UVAO span of control. The proposed
span of control is one UVAO in a unit with 25 or more permanently assigned
Service members and an additional UVAO assigned for each additional
50 Service members. However, as of March 2, 2004, the revised DoD Directive
had not been published.

DoD also issues a biennial DoD Voting Plan that implements the functions of the
Uniformed and Overseas Citizens Absentee Voting Act and the provisions of
DoD Directive 1000.4. The objective of the DoD Voting Plan is to ensure that
voters are provided all necessary voting information and procedures. As of
March 2, 2004, the 2004-2005 DoD Voting Plan had not been issued. Continued
delays in updating the DoD Voting Plan will hinder DoD’s efforts to provide all
necessary voting information, including voting age requirements, election dates,
ballot proposals, and other absentee voting procedures. Continuing delays in
issuing a new DoD Directive 1000.4 and the 2004-2005 DoD Voting Plan will
contribute to inconsistencies in the implementation and effectiveness of the
Services’ voting assistance programs.

The Air Force and the Marine Corps issued guidance in 2003 that incorporates the
changes required by the memorandum issued by the Principal Deputy Under
Secretary of Defense for Personnel and Readiness and by the June 2002 DoD
Directive 1000.4. Air Force Instruction 36-3107, September 10, 2003, expands
the role of the Air Force in assisting personnel with voting matters and clarifies
the roles and responsibilities of major commands, installation commanders,
IVAOs, and UVAOs. Marine Corps Order 1742.1A (Change 1), October 1, 2003,
provides additional guidance for implementing its voting assistance program,
including completion of FPCAs upon check-in at each new duty station. Both Air
Force and Marine Corps guidance comply with the current version of DoD
Directive 1000.4, but they may need to be revised when DoD issues a new DoD
Directive 1000.4.

Army Regulation 608-20, August 15, 1981, and Navy Instruction 1742.1,
August 14, 2002, are not in compliance with the current DoD Directive 1000.4 or
the May 2, 2003, guidance from the Principal Deputy Under Secretary. Areas of
non-compliance in Army and the Navy guidance include UVAO spans of control,
in-hand delivery dates of FPCAs, and the requirement to support tenant and
geographically separated units. In response to our report on the 2002 elections,


                                    10
the Army Adjutant General stated that Army guidance would be updated in future
Army voting assistance program instructions and directives. However, updated
regulatory guidance was never issued and the 1981 Army Regulation 608-20
continues to be the Army voting assistance program guidance. Navy Instruction
1742.1 was updated in 2002, but does not include the June 2002 DoD 1000.4
guidance or revisions required by the Principal Deputy Under Secretary’s
May 2, 2003, memorandum.

The proposed DoD Directive 1000.4 requires measures to ensure voting materials
are moved expeditiously by military postal authorities; designates the number of
uniformed absentee voters that can be served by a UVAO; requires that time and
resources be provided to UVAOs to perform their duties; and requires the
establishment of a VAO network and communications capability to quickly
disseminate information through the installation or major command. We
recognize that the delayed issuance of DoD Directive 1000.4 is one reason
improvements are still needed in each Service’s program. Because DoD
Directive 1000.4 was not published in a timely manner, it was not realistic to
expect the Services to revise and implement their guidance in time for the 2003
elections. However, the Army and the Navy should have updated their guidance
based on the memorandum from the Principal Deputy Under Secretary and our
report on the 2002 elections.

Incorporating DoD policy in Service regulations ensures the widest dissemination
of DoD policies and procedures and emphasizes the importance that the highest
levels of command place on exercising the right to vote. All of the Services may
have to update their guidance again once the revised DoD Directive 1000.4 is
issued.

Consistent and up-to-date regulations, instructions, and orders are important
aspects of successful absentee voting assistance programs. Additional critical
components of voting assistance programs are SVAO accountability and
oversight of voting assistance programs.

Service Accountability and Oversight. DoD Directive 1000.4 requires that a
uniformed officer of general or flag rank be designated by each Service as the
Senior Service Voting Representative and be accountable for Service-wide
implementation of voting assistance programs. Although a general or flag officer
holds the title of Senior Service Voting Representative in each of the Services, the
overall management of the voting assistance program is delegated to an SVAO,
who is responsible for the Service’s voting assistance operations. During the
majority of 2003, the SVAO position was a collateral duty position for all of the
Services. As of November 2003, the Navy and the Marine Corps recognized that
their voting assistance programs required full-time attention and dedicated a
full-time person to the position. The Army and the Air Force should also
establish the SVAO as a full-time position, and the Navy, the Air Force, and the
Marine Corps should consider establishing the SVAO as a civilian position to
help ensure continuity of their programs.

During 2003, the Marine Corps SVAO and the Marine Corps Inspector General
worked closely together on mandatory inspections of the voting assistance
program. The SVAO was an active participant in the Marine Corps Inspector


                                    11
General inspections. Results of the individual inspections were provided to
commands, installations, and the units inspected, as well as to the SVAO. The
SVAO also monitored the results of major command and unit-level inspections.
We believe that providing inspection results to the Marine Corp SVAO was a
valuable tool and assisted the SVAO in identifying areas needing improvement
throughout the year. To assist the Services in monitoring their programs, the
Army, the Navy, and the Air Force Inspectors General should provide their
inspection results to their SVAO throughout the year.

We also found that the Army, the Air Force, and the Marine Corps SVAOs were
able to identify their major command and installation VAOs for 2003. In
mid-2003, the Navy recognized the need to improve its voting assistance program
oversight and started developing a Web-based Voting Information Management
System (VIMS). VIMS will provide a roster of VAOs by unit identifier code as
well as a checklist for command, installation, and unit VAOs to complete as part
of a post-election survey. The Navy should be commended for its initiative and
development of an oversight mechanism; however, the Navy should establish a
periodic update capability in VIMS for users to report on compliance with the
Navy voting assistance program throughout an election year.

Improvements Are Still Needed. Despite initiatives implemented and planned,
many of the problems that we found after the 2000 and 2002 elections continued
to exist in 2003. The Services need to provide command emphasis at all levels of
command and need to improve oversight of the program in order to ensure:

       •   that voting assistance programs are consistently effective, to include
           voter awareness and understanding of the absentee ballot process; and

       •   that UVAOs are appointed and properly trained in a timely manner to
           assist uniformed absentee voters.

        Command Emphasis. We asked questionnaire respondents to rate the
emphasis placed on voting at their installation. Although 45 percent of the
respondents rated command emphasis as sufficient or too much, 55 percent rated
the emphasis as not enough or none (insufficient). The perception that local
command emphasis was insufficient was higher among junior enlisted
respondents. For those respondents who answered the command emphasis
question, 73 percent of Army, 61 percent of Navy, 36 percent of Air Force, and
52 percent of Marine Corps personnel stated that command emphasis was
insufficient. Although the design of the questionnaire does not allow the
establishment of cause and effect relationships, the voting rate was higher for
respondents who thought that command emphasis was sufficient than for those
who thought command emphasis was insufficient.

       Service Oversight. Command emphasis and Service oversight are crucial
components of an effective voting assistance program. Until the Services oversee
and emphasize the importance of voting assistance programs, DoD will continue
to have partially effective or ineffective programs.

       During 2003, the SVAOs did not have appropriate controls in place to
ensure that the Services’ voting assistance programs were effectively


                                   12
implemented at all levels of command. The SVAOs relied on major command
IVAOs and UVAOs to comply with Service guidance and voting action plans for
the success of their voting assistance programs. The SVAOs did not effectively
monitor the degree of compliance with their voting assistance programs and
generally had no followup mechanism to determine the effectiveness of program
implementation.

        The Services should develop a reporting system to track the
implementation of the voting assistance program. The system should monitor an
installation’s compliance with DoD Directive 1000.4, Service guidance, and
voting action plans. For example, IVAOs could notify SVAOs that their
installation had completed distribution of FPCAs by the required date, could state
that UVAOs were appointed and trained and that their span of control was
appropriate, and could provide information on the numbers of personnel that have
been trained. Additionally, monitoring the voting assistance program inspection
results from the Service Inspectors General would provide SVAOs a “snapshot”
status of the voting assistance program and could provide valuable information to
the SVAO on corrective actions to be implemented at the major command,
installation, or unit level throughout the voting year.

       The need for improved emphasis and oversight is supported by the
respondents’ answers to questions on availability and awareness of voting
resources and awareness of UVAOs. Without command emphasis, oversight, and
accountability of the voting assistance programs, uniformed absentee voter
awareness and understanding will continue to be dependent on individual efforts.

        Awareness of Voting Assistance Program Resources. We asked
uniformed absentee voters about voting information and communication tools that
were available during 2003. The questionnaires were designed to gauge the level
of awareness of, and satisfaction with, FVAP and Service resources. As stated
previously, many respondents were not aware of the resources. However, those
who had used the resources were satisfied with them. Table 2 shows the percent
of uniformed absentee voters who completed our questionnaires that were
unaware of FVAP and Service resources.

              Table 2. Percent of Awareness of FVAP and Service Resources

                                                    Percent of Questionnaire
                 Resource                            Respondents Unaware

 2002-03 Voting Assistance Guide                              54

 FVAP Web site                                                58

 Service or installation Web site                             67



       To its credit, the FVAP Office continued to offer useful tools, but many
uniformed absentee voters continued to be unaware of them. For example,
67 percent of Army, 52 percent of Navy, 43 percent of Air Force, and 59 percent


                                      13
of Marine Corps personnel who completed our questionnaire stated that they were
unaware of the Guide. Additionally, 70 percent of Army, 58 percent of Navy,
44 percent of Air Force, and 64 percent of Marine Corps personnel who
completed our questionnaire stated that they were unaware of the FVAP Web site.
Low percentages of respondents who were aware of the FVAP and Service
resources may be directly attributable to the low percentages who knew their
UVAO. Better implementation of voting assistance programs and uniformed
absentee voter representation by sufficient and trained UVAOs will help DoD to
provide a more effective voting assistance program.

        As we found after the 2000 and 2002 elections, many respondents were
not aware of the resources, but those who had used the resources were satisfied
with them. Table 3 shows the level of satisfaction for the respondents who rated
satisfaction with FVAP and Service resources.

            Table 3. Percent of Satisfaction With FVAP and Service Resources

                                                    Percent of Questionnaire
                 Resource                            Respondents Satisfied

 2002-03 Voting Assistance Guide                              82

 FVAP Web site                                                80

 Service or installation Web site                             75



        Uniformed absentee voters face a multi-step process in order to comply
with a myriad of State and local voting requirements. The challenges encountered
by uniformed absentee voters include obtaining an awareness and understanding
of absentee voting procedures, obtaining voting material in a timely manner, and
registering for and obtaining an absentee ballot. The availability of FVAP Office
resources and the resources of Service voting assistance programs is crucial for
uniformed absentee voters because of the complexity of the absentee voting
process.

        Service Voting Assistance Programs. The FVAP and Service voting
assistance programs provide uniformed absentee voters procedures and resources
for accomplishing the absentee voting process. However, the effectiveness of the
Services’ voting assistance programs varied considerably at the 10 locations we
visited. Many of the problems we found after the 2000 and 2002 elections
continued to exist at the installations visited in 2003, indicating that
improvements are still needed in each Service’s program.

       DoD faces many of the same challenges as the entire United States in its
attempt to increase voting participation, particularly among the younger
population of eligible voters. DoD challenges are magnified because of frequent
deployments, increased operational requirements, and worldwide dispersion of its
absentee voters. The Services could improve awareness and understanding of the
absentee ballot process, which might encourage non-voters to participate in future


                                       14
elections. We attribute the lack of awareness and understanding of the absentee
ballot process to a lack of consistency and continuity in the implementation of
Service voting assistance programs.

         Understanding of the Absentee Ballot Process. Voter understanding is
critical to successful use of absentee ballots. Questionnaire results showed that
58 percent of the uniformed absentee voters surveyed understood the absentee
ballot process from a moderate extent to completely. The level of understanding
was substantially lower (37 percent) for junior enlisted personnel than for officers
(76 percent). Additionally, the understanding level (moderate to completely) for
respondents who had previously voted using an absentee ballot was substantially
higher (81 percent) than for those who had not (39 percent). The issue of
uniformed absentee voters not understanding the absentee voting process was also
discussed in our prior reports on the 2000 and 2002 elections (see Appendix A for
a listing of those reports). During 2003, about 42 percent of the questionnaire
respondents stated that they understood the absentee voting process to a small
extent or not at all.

       Problems Encountered During 2003. As we did in 2002, we asked
uniformed absentee voters about problems they encountered during 2003 and any
reasons they might have had for not voting. About 65 percent of uniformed
absentee voters who completed our questionnaire stated that they had at least one
problem with the absentee voting process during 2003. The problems mentioned
most often, in descending order, were:

               •   did not understand the absentee voting process,

               •   not enough information on candidates or issues,

               •   difficulty in maintaining a current mailing address with local
                   election officials,

               •   no way of knowing whether State election officials had
                   received registration forms,

               •   complicated voting procedures, and
               •   the absentee ballot never arrived.

        Reasons for Not Voting. Of the uniformed absentee voters who
completed our questionnaire, 54 percent stated that they did not vote or did not
intend to vote in a local, State, or special Federal election in 2003. Their reasons
for not voting, in descending order, were:

               •   not familiar with the candidates or issues,

               •   not interested in voting,

               •   did not know whether there were elections in their voting
                   jurisdictions,



                                     15
              •   had no candidate preference, and

              •   did not know how to obtain an absentee ballot.

       Four of the five reasons mentioned above were also among the five most
frequent reasons cited for not voting after the November 2002 elections.

        Some of the other reasons for not voting were related to State absentee
voting procedures, and some included personal preference issues. Neither State
absentee voting procedures nor personal decisions about voting are controllable
by DoD. Although DoD can encourage voter participation, it cannot and should
not attempt to force its Service members to vote.

        Although improvements are needed in DoD’s voting assistance program,
we found examples of installation personnel implementing programs to increase
uniformed absentee voter awareness and understanding. At Luke Air Force Base,
personnel were augmenting a program used to train junior enlisted personnel.
The First Term Airman Center training program provides comprehensive
information on duties and responsibilities for individuals arriving at their first
duty location. Included in the various command presentations is a segment on the
voting assistance program, presented by the IVAO or an experienced UVAO. We
believe that the First Term Airman Center training program, commander’s call,
and other weekly or monthly training and information sessions are excellent
opportunities for IVAOs and UVAOs to present information on absentee voting.
The Services should consider using various training materials and military
settings, such as command orientations or general military training sessions, to
maximize voter awareness and the effectiveness of voting assistance programs.

        Effectiveness of Voting Assistance Programs. The effectiveness of the
Services’ voting assistance programs varied during 2003 at the locations we
visited. At 10 installations, we found that two Air Force and one Navy
installations had partially effective programs and three Army, two Navy, one Air
Force, and one Marine Corps installations had ineffective programs. Command
emphasis and SVAO oversight of those Service programs would have helped
ensure that regulations were followed and corrective actions taken as necessary.
        To determine an installation’s effectiveness, we assessed each
installation’s program compliance with DoD and Service guidance and how well
the program had been implemented. We also considered comments from
uniformed absentee voter discussion groups in our assessments. Voting
assistance programs were ineffective for some of the following reasons.

              •   IVAOs were not appointed or trained.

              •   UVAOs were not appointed or trained.

              •   In-hand delivery of FPCAs did not occur.




                                    16
               •   IVAOs and UVAOs were not aware of DoD or Service
                   guidance.

               •   There was no evidence of command involvement that
                   emphasized the voting assistance program.

       Availability of Voting Assistance Officers. Providing accessible and
knowledgeable VAOs should improve understanding of absentee voting
procedures for uniformed absentee voters. In our opinion, Naval Air Station
Keflavik, Royal Air Force Lakenheath, and Luke Air Force Base demonstrated
comprehensive continuity of operations. For example, at Naval Air Station
Keflavik and Luke Air Force Base, commanders appointed new IVAOs who
worked closely with their predecessors to ensure continuity of the program and a
smooth transition of IVAO responsibilities. At Royal Air Force Lakenheath, the
IVAO continually monitored the appointment and training of UVAOs to ensure
continuity of the voting assistance program. For details of other voting assistance
program best practices and initiatives at the installation and SVAO level, see
Appendix D.

        During our evaluation of the Services’ voting assistance programs, we
conducted discussion groups with UVAOs. At seven locations—three Army, two
Navy, one Air Force, and one Marine Corps—trained UVAOs were not readily
available to ensure that all uniformed absentee voters had the opportunity to vote.
UVAOs were not designated and appointed and were not properly trained to
satisfactorily perform the required duties of a UVAO. Also, we were unable to
locate current UVAO lists, appointment letters, or other documentation to indicate
that UVAOs had been assigned to assist voters before our arrival.

        At one of the two Navy installations, we found that an IVAO had not been
designated and appointed until our unannounced arrival. As a result, the
installation had no focal point to coordinate voting assistance and ensure voting
opportunities for uniformed absentee voters at all installation organizations.

       At the seven locations, some UVAOs had been appointed after our
unannounced arrival. It appeared that they had been appointed merely to satisfy
our review requirements. To ensure consistent application of voting assistance
programs and to assist uniformed absentee voters, the Services need to appoint
and properly train IVAOs and UVAOs in a timely manner. The Services need
controls to ensure that such appointments and training are accomplished.

        The fact that VAOs were not designated at all levels of command
demonstrates the lack of emphasis and low priority given the program at the seven
installations. For example, during our review of the Army voting assistance
program in Germany, we found that command VAOs were designated at the
Army’s major command and at area support groups that function as Army
installations within Europe. However, VAOs were not designated at subordinate
commands, such as V Corps and the 1st Infantry Division. DoD Directive 1000.4
and the DoD Voting Plan require that VAOs be designated at all levels of
command. At the two Army locations in Germany, the voting assistance program
was regarded as another administrative burden rather than a command-emphasis
program. Further, several UVAOs commented that they had more important


                                    17
things to do than hand out FPCAs and that eligible voters needed to be more
responsible in learning how to vote. Appointing UVAOs is important, but just as
important is the assurance that uniformed absentee voters are aware of their
UVAOs.

        Respondents’ Awareness of UVAOs. Uniformed absentee voters’
awareness of their UVAOs and respondent perceptions of UVAO effectiveness
varied. Overall, 58 percent of the uniformed absentee voters who answered our
questionnaire stated that they did not know who their UVAO was. Awareness of
the UVAO was lower among junior enlisted personnel (about 23 percent).
Table 4 shows that the Army and the Navy had the highest percentage of
respondents who were unaware of who their UVAO was. For the locations
visited, only the Air Force achieved more than half of its respondents knowing
who their UVAO was (63 percent). Even the Air Force’s level of awareness
demonstrates the opportunity for improvement.

                            Table 4. Awareness of UVAO
                                                  Percent of Questionnaire
                Service                            Respondents Unaware

                   Army                                     75

                   Navy                                     65

               Air Force                                    37

             Marine Corps                                   58



        For the respondents who knew their UVAO and used the services of the
UVAO, about 91 percent were satisfied with the availability of their UVAO.
About 87 percent were satisfied with the UVAO’s knowledge of the absentee
ballot process, and about 91 percent were satisfied with the UVAOs performance
in providing voting materials upon request.

        The high percentage of individuals who did not know their UVAO is one
indicator that that there was a low level of compliance with DoD and Service
regulations and that voting assistance programs need improvement. Those
respondents who knew their UVAO and used their UVAO’s services reported a
high level of satisfaction with their voting assistance and greater understanding of
the absentee ballot process. Without appointed and properly trained UVAOs,
uniformed absentee voters may not have access to, or be aware of, voting
assistance resources such as the FPCA or the FWAB.

       In-Hand FPCA Delivery. Many uniformed absentee voters did not
receive in-hand delivery of the FPCA. DoD Directive 1000.4 requires the heads
of DoD Components to ensure in-hand delivery of FPCAs by:

               •    January 15 of each year to eligible voters and their voting-age
                    dependents,


                                     18
               •   August 15 of even-numbered years to eligible voters who are
                   serving outside the territorial limits of the United States, and

               •   September 15 of even-numbered years to eligible voters in the
                   United States.

        In-hand delivery entails placing an FPCA in the hands of all eligible
voters on or before the required dates. IVAOs did not ensure that UVAOs
complied with the requirements for in-hand delivery of FPCAs. In fact, some
UVAOs at most installations were unaware that in-hand delivery of the FPCA is
required by January 15th of each year.

        Federal Write-In Absentee Ballot. The FWAB can be used as a
“back-up” ballot if an overseas registered uniformed absentee voter does not
receive his or her regular ballot from the State or territory where the voter is
registered. Some States now allow the FWAB to be used by uniformed absentee
voters in elections other than general elections or for offices other than Federal
offices. The majority of respondents (76 percent) stated that they were unaware
of the FWAB.

        Officers and senior enlisted personnel were generally more aware of the
use of the FWAB than junior enlisted personnel. Registered uniformed absentee
voters are eligible users of the FWAB and represent a potential increase in the
voting participation rate if they do not receive an absentee ballot, or receive it
late.

Military Service Academies. We also visited the Service academies to
determine whether they maintained voting assistance programs for the cadets and
midshipmen. At each location, we visited with the IVAO or the representative in
charge of voting assistance. We did not conduct discussion groups with the
cadets or midshipmen or request that they complete our questionnaires. The
voting assistance programs at the Service academies varied in organizational
structure and administration.

The servicing IVAO at the West Point Military Academy is assigned at the
installation level. Four UVAO representatives are dedicated to 4,000 cadets.
According to the IVAO, voting information was forwarded to the UVAOs at the
Academy but there is no followup to verify that voting information reaches the
cadets.

In contrast, the Navy and Air Force academy VAOs work directly with the
midshipmen and cadets and have incorporated initiatives to target the midshipmen
and cadets. At the Naval Academy, there is a VAO assigned to the Commandant
of Midshipmen’s office who is dedicated to coordinating the voting assistance
program. The Commandant’s VAO coordinates the efforts of 34 midshipmen
voting representatives, one in each company of midshipmen, who are dedicated to
supporting approximately 4,000 midshipmen. Correspondence and activities are
coordinated by the Commandant’s VAO and sent through the company voting
representatives to each midshipman. Additionally, both the Naval Academy and
Air Force Academy Web sites had an area dedicated to voting assistance.



                                     19
    Although the Air Force Academy IVAO had only one cadet representative who
    supported approximately 4,000 cadets, the IVAO forwarded voting information
    e-mails to the cadet representative who in turn forwarded the information to each
    cadet in the cadet wing. The IVAO was proactive in her administration of the
    program and received feedback as to whether voting information was being sent
    to each cadet. Although the academy IVAO belonged to the wing, the voting plan
    was coordinated and endorsed by the wing commander and academy personnel.

    The implementation of the Service voting assistance programs can be improved at
    each of the Service academies. The Service academies need to comply with the
    requirements of DoD Directive 1000.4 to ensure that all cadets and midshipmen
    are aware of their Service’s voting assistance program, receive in-hand delivery
    of the FPCA, and understand the absentee voting process. Additionally, each
    Service academy IVAO needs to ensure that the ratio of UVAOs to cadets and
    midshipmen is in accordance with their Service’s guidance.

    The Service academies offer 4-year programs of instruction and experience
    designed to provide cadets and midshipmen with the knowledge and character
    essential for leadership and the motivation to serve as career officers in their
    chosen career field. Each cadet and midshipman is a potential future leader in
    their respective Service, and in the Marine Corps, and training them in the
    importance of the absentee voting process may be an effective long-term solution
    to the command emphasis problems identified in this report.


Service Inspector General Assessments
    In addition to the OIG DoD annual review of voting assistance programs,
    10 U.S.C. 1566 requires the Inspectors General of the Services to annually assess
    their voting assistance programs. DoD Directive 1000.4 and the DoD Voting
    Plan also require each Service Inspector General to include command voting
    assistance programs as an item for specific review at every organizational level.
    The Directive also requires the Inspectors General of the Services to provide the
    OIG DoD with the results of their reviews by January 31 of each year. Those
    reviews are in Appendixes E, F, G, and H.

    Army Inspector General. The Army Inspector General submitted the
    “Assessment of the FY 2003 Army Voting Assistance Program,”
    January 22, 2004, to the OIG DoD on February 10, 2004. The Army Inspector
    General assessed the voting assistance programs at Army major commands and
    stated that he provided the Inspectors General at 24 major commands a
    questionnaire and a copy of a UVAO interview guide to ensure standardization in
    the review of elements critical to implementing an effective voting assistance
    program. The Army Inspector General determined that:
               MACOMs [major commands] were complying with the instructions to
               conduct an annual assessment of The Army Voting Assistance
               Program. Sixty-seven percent of the MACOMs assessed were in
               compliance with instructions provided. Based upon the remaining
               33% that were not in compliance, the assessment indicates that more



                                          20
           emphasis needs to be placed on this program. Fifty-three percent of all
           MACOMs reported receiving adequate command support at all levels
           for the voting assistance program.

The Army Inspector General stated that while no systemic problems were found,
there were areas that could be improved. The complete Army Inspector General
report is in Appendix E.

Naval Inspector General. The Naval Inspector General provided the “Report of
Assessment of Navy Voting Assistance Program,” February 3, 2004, to the
OIG DoD on February 3, 2004. The Naval Inspector General determined that:
           The Navy’s Voting Assistance Program for calendar year 2003 was
           found lacking. To quote one Voting Assistance Officer (VAO):
           “Calendar year 2003 is a non-voting year” and that is how a significant
           portion of commands approached the program despite the fact that
           three governors were elected this year.

The Naval Inspector General surveyed 24 units, 5 major commands, and
3 installations. The Naval Inspector General reported that despite poor support
of the program during 2003, 65 percent of the personnel surveyed knew who to
contact or where to obtain an FPCA. Further, the Navy Inspector General had
concerns with some of the program requirements, such as the paygrade of the
SVAO and the span of control of the UVAOs. The complete Naval Inspector
General report is in Appendix F.

Air Force Inspector General. The Air Force Inspector General provided the
“United States Air Force Voting Report,” undated, to the OIG DoD on
February 4, 2004. The Air Force Inspector General stated that:
           The overall assessment of the Air Force’s compliance with DoD
           Directive 1000.4, Federal Voting Assistance Program (FVAP), related
           Air Force Instructions, and the Uniformed and Overseas Citizens
           Absentee Voting Act is satisfactory. The Air Force, at all levels,
           placed increased emphasis on the voting program and associated
           requirements. In accordance with DoD Directive 1000.4, the Air Force
           evaluated the effectiveness of the voting programs at the squadron,
           group, wing, and command levels through scheduled unit compliance
           inspections during CY [calendar year] 2003.

The complete text of the Air Force Inspector General report is in Appendix G.

Marine Corps Inspector General. The Marine Corps Inspector General
provided the “Annual Assessment of the USMC [U.S. Marine Corps] Federal
Voting Assistance Program for 2003,” February 5, 2004, to the OIG DoD on
February 6, 2004. The Marine Corps Inspector General concluded that:
           The Marine Corps has an effective Voter Assistance Program and
           complied with the reference [DoD Directive 1000.4], with the
           exception of discrepancies as noted below. This assessment is based
           upon the results of 58 independent units and major command
           inspections conducted during Calendar Year 2003.


                                        21
     The Marine Corps Inspector General further stated that although no significant
     problems were noted,
                . . . the following discrepancies were identified at the individual unit
                level. Immediate action was taken to correct all discrepancies.

                a. Federal Post Card Applications were not given “in hand” to every
                   Service member.          This discrepancy is identified [Marine
                   Corps]-wide.
                b. VAO appointment letter not in correct format or forwarded to
                   [Marine Corps headquarters].
                c. No documentation of training being conducted for the command,
                   voting officers or assistants.
                d. Outdated Voting Assistance Guides.
                e. VAO not listed in command telephone directory.
                f. Voting Assistance Newsletters not maintained.
                g. Voting material not displayed.
                h. Lack of familiarity with the FVAP website.
                i. Many unit Voting Officers were assigned to more than 200 Marines
                   in larger units.

     The complete text of the Marine Corps Inspector General report is in Appendix H.


FVAP Office Coordination With Election Officials
     Each year, the FVAP Office contacts the chief election official in each State and
     the territories to propose changes to policy or legislation that would simplify
     absentee voting procedures. The FVAP Office was working with election
     officials on proposals related to the timeliness of mailed ballots, late registration
     procedures, and expanded use of FWABs. The FVAP Office was also working
     on proposals related to special State write-in absentee ballots and electronic
     transmission of balloting materials. The FVAP Web site includes a detailed
     discussion of most of the proposals.

     The results of our questionnaires and discussion groups indicate that the FVAP
     Office should continue to work with the election officials on standardization and
     simplification of the absentee ballot process and for the States to provide
     confirmation to absentee voters on receipt of balloting materials to resolve
     difficulties related to overseas absentee voting. Because of the FVAP Office’s
     continued coordination with election officials, we are not making
     recommendations on those issues.


Conclusion
     The FVAP Office continued to provide a variety of valuable resources for
     uniformed absentee voters in 2003. Those resources and the timely issuance of a
     new DoD Directive 1000.4 and the 2004-2005 DoD Voting Plan will provide the
     foundation for effective voting assistance programs. SVAO oversight and


                                             22
    accountability, as well as command emphasis, will also ensure that DoD is doing
    all it can to increase voter awareness and participation in 2004.

    Despite the fact that uniformed absentee voters consistently vote at a higher rate
    than the U.S. voting population, opportunities still exist for improvement. In our
    reports on the 2000 and 2002 elections, we made numerous recommendations to
    improve the oversight and effectiveness of the Services’ voting assistance
    programs. We also recommended that DoD oversee Service policies to ensure
    consistency with DoD Directive 1000.4. Additionally, we made
    recommendations to the Services that they establish controls and procedures to
    ensure voting assistance program continuity, expedient and wide-spread
    dissemination of voting materials, and training of uniformed absentee voters.

    We are recommending a system of accountability because this evaluation showed
    that prior year deficiencies still exist and that improvements are still needed. We
    are also making recommendations for the Services to improve their command
    emphasis and oversight of the voting assistance program. We recognize that
    absentee voting requires some initiative by the potential voter. However, DoD
    needs to do all that it can to ensure that any absentee member that chooses to vote
    has the opportunity and the resources to do so. The importance of continual
    voting assistance program emphasis and oversight, as well as having an effective
    program, cannot be overemphasized.

    Many challenges to uniformed absentee voters are not within the control of DoD.
    The FVAP Office has made considerable progress in working with the States to
    make the voting process easier for absentee voters and should continue to work
    with election officials to resolve issues as they are identified.


Recommendations, Management Comments, and Evaluation
  Response
    The USD(P&R) and the Navy did not comment on a draft of this report. We
    request that the USD(P&R) and the Navy provide comments on the final report.
    Table 5 (page 31) shows specific elements needed in all management comments.
    Evaluation response sections discuss additional comments needed about proposed
    actions from the Army, the Air Force, and the Marine Corps.

    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness:

           a. Expedite the revision and issuance of DoD Directive 1000.4,
    “Federal Voting Assistance Program,” June 3, 2002, and the DoD Voting
    Plan for 2004-2005.

            b. Provide oversight to ensure that Service voting assistance program
    regulations and Service voting plans are consistent with the requirements
    established by the new guidance.




                                        23
2. We recommend that the Secretaries of the Army and the Navy update
voting assistance program regulations to be consistent with the May 2, 2003,
guidance from the Principal Deputy Under Secretary of Defense for
Personnel and Readiness.

Army Comments. The Army Adjutant General stated that the Army has been
responsive in efforts to improve its voting assistance program. The Army
Adjutant General stated that implementing instructions for the 2004 elections
satisfy the recommendations in our report on the 2002 elections.

Additionally, we received unsolicited comments from the Commanding General,
U.S. Army, Europe, and Seventh Army (USAREUR). The Commanding General
established the USAREUR 2004 Voting Campaign to ensure that all military
personnel, DoD civilians, and their family members are provided information on
registering to vote and are given the opportunity to exercise their right to vote.
The USAREUR 2004 Voting Campaign includes a USAREUR Voting Action
Plan that provides guidance on conducting a voting assistance program.
Specifically, the USAREUR Voting Action Plan addresses training requirements,
distribution of FPCAs, and command emphasis on voting and awareness. The
Commanding General is also requiring that everyone in his chain of command,
including rear detachment commanders, be committed to giving each soldier,
civilian, and family member an informed opportunity to cast a ballot. The
Commanding General should be commended for the significant improvements he
plans to make to the Army voting assistance program in Europe. The USAREUR
2004 Voting Campaign and USAREUR Voting Action Plan should be reviewed
by the Army SVAO and considered for dissemination to other Army major
commands for use during the 2004 election year.

Evaluation Response. The comments from the Army Adjutant General are
partially responsive. Although the Army did not have adequate guidance in either
its 2002-2003 implementing instructions or its 1981 regulation, the current
2004-2005 implementing instructions include the updates required by the
Principal Deputy Under Secretary of Defense for Personnel and Readiness. The
current 2004-2005 implementing instructions also include specific
recommendations made in prior OIG DoD evaluation reports on DoD voting
assistance programs. However, the Army 2004-2005 implementing instructions
do not appear to be regulatory in nature and the 1981 regulation continues to be
the most current official Army regulation.

In response to OIG DoD Report No. D-2003-072, “DoD Compliance With the
Uniformed and Overseas Citizens Absentee Voting Act,” March 31, 2003, the
Army agreed to consider its 2002-2003 implementing instructions as interim
guidance pending reissuance of its 1981 regulation. The 2004-2005
implementing instructions referred to in the Army response to this year’s report
are posted on the Army voting assistance program Web site; however, we know
of no official senior management endorsement directing or requiring compliance
with the guidance. In response to the final report, we request that the Army
provide documentation that the 2004-2005 implementing instructions were
approved and issued to all levels of command as interim regulatory guidance (see
Table 5).



                                    24
3. We recommend that the Secretaries of the Military Departments and the
Commandant of the Marine Corps update voting assistance program
regulations, instructions, and orders as soon as the new DoD Directive 1000.4
is issued.

Army Comments. The Army Adjutant General stated that Army Regulation
608-20 is under revision to comply with the current DoD Directive 1000.4 and is
expected to be published in the 2nd quarter of FY 2005.

Air Force Comments. The Director, Learning and Force Development in the
Office of the Deputy Chief of Staff for Personnel concurred and stated that the
current Air Force voting instruction would be updated upon publication of the
revised DoD Directive 1000.4.

Marine Corps Comments. The Inspector General of the Marine Corps
concurred.

Evaluation Response. The comments from the Army Adjutant General are
nonresponsive. In our opinion, publication of a revised Army Regulation 608-20
in the 2nd quarter of FY 2005 is not timely. Current Army Regulation 608-20,
“Voting by Personnel of the Armed Forces,” August 15, 1981, does not comply
with the May 2003 guidance from the Principal Deputy Under Secretary of
Defense for Personnel and Readiness or the current DoD Directive 1000.4. In our
reports on the 2000 and 2002 elections, we recommended that the Army update
Army Regulation 608-20 to be consistent with DoD guidance. In response to our
report on the 2002 elections, the Army stated that it planned to issue a revised
Army Regulation 608-20 by October 2003. The Army is the only Service that has
not updated its regulatory guidance after the June 2002 revision to DoD Directive
1000.4. Additionally, Army Regulation 608-20 does not parallel the current
Army implementing instructions discussed in Recommendation 2.

We believe that timely publication of Army Regulation 608-20 is critical to a
compliant and effective Army voting assistance program, but recognize that
continued DoD delays in issuing a revised DoD Directive 1000.4 will impact the
timeliness for publishing the revised Army regulation. However, the Army
should issue its revised regulation shortly after the issuance of the revised DoD
Directive 1000.4 and should have been in the process of revising its regulation in
accordance with the draft DoD Directive 1000.4 that was issued for comment in
September 2003. In response to the final report, we request that the Army
reconsider the timing of reissuing Army Regulation 608-20 (see Table 5).

Comments from the Air Force Director, Learning and Force Development and
from the Inspector General of the Marine Corps are responsive, but lacked a
completion date for planned actions (see Table 5).




                                    25
4. We recommend that the Secretaries of the Military Departments and the
Commandant of the Marine Corps require that Senior Service Voting
Representatives:

       a. develop a reporting system to monitor throughout the year a
programs’ compliance with the requirements of DoD Directive 1000.4 and
Service voting guidance.

       b. ensure junior enlisted personnel and other first-time voters are
provided voting assistance information during general military training
sessions or command orientations.

Army Comments. The Army Adjutant General stated that the Army has been
responsive in developing reporting systems to monitor yearly program
compliance during Federal election years and plans to implement additional
reporting requirements during non-Federal election years. Additionally, the
Army is proceeding with an evaluation to develop an implementation plan to
ensure junior enlisted personnel and other first-time voters are provided voting
assistance information.

Air Force Comments. The Air Force Director, Learning and Force Development
concurred and stated that the Air Force SVAO will monitor the health of the Air
Force voting assistance program using some of the recommendations within this
report. The Air Force Director also stated that Air Force Instruction 36-3107
requires IVAOs to provide registration materials and a briefing on the absentee
voting process at all individualized, newcomer, treatment, and orientation
programs. The Air Force Director also stated that the Air Force SVAO will work
with the office responsible for the First Term Airman Center program to establish
a requirement for the Air Force voting assistance program as a mandatory
briefing. Further, the Air Force SVAO will coordinate with various military
training programs to ensure the Air Force voting assistance program is included in
appropriate curriculums, such as basic training, officer training school, and
professional military education.

Marine Corps Comments. The Inspector General of the Marine Corps
concurred and stated that the Marine Corps order will require publishing the
results of command inspections and SVAO followup and assist visits. The results
of those inspections and visits will be forwarded to the Marine Corps SVAO. The
Inspector General of the Marine Corps stated that commands at all levels are
providing voter awareness training using materials available on the Marine Corps
voting Web site. The Inspector General also stated that the Marine Corps will
continue its vigilance and assessments to strengthen its commitment to provide
every Marine the opportunity to vote.

Evaluation Response. The comments from the Army Adjutant General are
partially responsive. The 2004-2005 voting assistance program guidance for the
conduct of the Army voting assistance program contains significant
improvements for monitoring the effectiveness of the Army voting assistance
program. The guidance requires quarterly reports listing all installation VAOs, a
confirmation of an installation’s compliance with the requirement to deliver
FPCAs in-hand, three status reports on installation events held or planned to


                                    26
emphasize voter awareness, and an after-action report. Those requirements
should be included in the new Army Regulation 608-20 discussed in our response
to Recommendation 3. In response to the final report, we request that the Army
provide additional details on how it plans to monitor program compliance
throughout the year at all levels of command. We also request that the Army
provide additional details on how it plans to ensure junior enlisted personnel and
other first-time voters are provided voting assistance information (see Table 5).

The comments from the Air Force Director, Learning and Force Development are
partially responsive. In response to the final report, we request that the Air Force
provide additional comments describing how it will develop and implement a
reporting system to monitor the Air Force voting assistance program’s
compliance with the requirements of DoD Directive 1000.4 (see Table 5).

The comments from the Inspector General of the Marine Corps are partially
responsive. We believe the Marine Corps SVAO’s active participation in
numerous Marine Corps inspections of installation and unit voting assistance
programs is an effective oversight tool. The results of periodic command
inspections and SVAO followup and assist visits should assist the Marine Corps
SVAO in establishing continual oversight of the effectiveness of the Marine
Corps voting assistance program. However, because the Inspector General of the
Marine Corps does not provide coverage of all Marine Corps units, we believe a
reporting system should be established to monitor Marine Corps compliance with
the requirements of DoD Directive 1000.4.

The Inspector General stated that proper training and education of personnel is the
key to an effective program. The Marine Corps has developed a comprehensive
voting assistance program Web site that should enable Marine Corps VAOs, at all
levels of command, to provide voting awareness training. In response to the final
report, we request that the Marine Corps describe how it will monitor installation
and unit compliance with DoD Directive 1000.4 and how it will ensure that
voting assistance training is accomplished for junior enlisted personnel and other
first-time voters (see Table 5).

5. We recommend that the Secretaries of the Army and the Air Force
establish the Service Voting Action Officer as a full-time position.
Army Comments. The Army Adjutant General stated that the Army has
improved its voting assistance program by employing one civilian employee with
an additional primary duty as the SVAO.

Air Force Comments. The Air Force Director, Learning and Force Development
nonconcurred, stating that the Air Force voting assistance program is run by two
military personnel. The Air Force Director did agree that a full-time civilian
position could effectively carry out the Air Force voting assistance program;
however, given the nature of the election calendar and gaps in voting intensity, he
stated that he believed a civilian employee with additional duties would be more
feasible.

Evaluation Response. The comments from the Army Adjutant General are not
responsive. The Army SVAO is a civilian employee with responsibility for the


                                     27
voting assistance program as an additional primary duty. In our opinion, the
duties and responsibilities of the Army SVAO support the need for a full-time
position.

During 2003, the three Army locations we visited had ineffective programs. For
example, 73 percent of Army respondents stated that there was not enough or no
emphasis placed on voting in 2003. Additionally, 37 percent of the Army
respondents did not know the Army had a voting assistance program and
75 percent did not know who their UVAO was. Additionally, the Army Inspector
General reported that one-third of the Army major commands were not in
compliance with Army voting assistance program instructions.

It is DoD policy for the Services to support uniformed absentee voters in all years
with elections for Federal, State, or local office. The importance of full-time
SVAO duties and responsibilities have been recognized by the Navy and Marine
Corps. Those Services recognized that a critical element for an effective Service
voting assistance program is the continual oversight and monitoring of the
program by the SVAO. We believe that the need for emphasis and oversight of
the voting assistance program and the continued deployment and wide dispersion
of active duty personnel justify the establishment of a full-time SVAO position.
In response to the final report, we request that the Army reconsider its position on
the establishment of the SVAO as a full-time position (see Table 5).

The comments from the Air Force Director, Learning and Force Development are
not responsive; however, the actions taken by the Air Force to explore the
feasibility of a civilian SVAO is a positive action. In our opinion, the deficiencies
cited in this report support the need for full-time oversight of and involvement
with the Air Force voting assistance program. For example, 37 percent of the Air
Force respondents did not know who their UVAO was. In response to the final
report, we request that the Air Force reconsider its position on establishing a
full-time SVAO (see Table 5).

6. We recommend that the Secretaries of the Navy and Air Force and the
Commandant of the Marine Corps consider establishing the Service Voting
Action Officer as a civilian position.
Air Force Comments. The Air Force Director, Learning and Force Development
nonconcurred, stating that the Air Force voting assistance program is run by two
military personnel. The Air Force Director also stated that his office will
determine whether a civilian SVAO, with additional duties, would be feasible.

Marine Corps Comments. The Inspector General of the Marine Corps
concurred.

Evaluation Response. The comments from the Air Force Director, Learning and
Force Development are partially responsive to the intent of the recommendation.
In response to the final report, we request that the Air Force provide its decision
about establishing the Air Force SVAO as a civilian position and the rationale for
the decision (see Table 5).




                                     28
The comments from the Inspector General of the Marine Corps are responsive,
but lacked a completion date for the planned action (see Table 5).

7. We recommend that the Secretaries of the Military Departments require
senior military personnel, such as the Army and Air Force Chiefs of Staff,
the Chief of Naval Operations, and the Commandant of the Marine Corps,
issue memorandums to all levels of command, reemphasizing the importance
of the voting assistance program, continued command emphasis, and
implementation of the program.

Army Comments. The Army Adjutant General stated that correspondence to all
levels of command emphasizing the importance of the voting assistance program
is being prepared for the Army Chief of Staff. Additionally, the Army is
conducting a public affairs campaign that included an interview with the Army
News Service, a video spot taped by the Adjutant General, and a story on the
voting assistance program for the July 2004 issue of Soldiers magazine.

Air Force Comments. The Air Force Director, Learning and Force Development
concurred.

Marine Corps Comments. The Inspector General of the Marine Corps
nonconcurred and stated that the Marine Corps has issued guidance to all levels of
command reemphasizing the importance of the voting assistance program and
continued command emphasis. The Inspector General of the Marine Corps also
stated that two All Marine messages from the Commandant of the Marine Corps
and two Marine Corps Administrative messages have been issued concerning the
implementation of the Marine Corps voting assistance program. Additionally,
one All Marine message and one Marine Corps Administrative message are
planned for release in the summer of 2004.

Evaluation Response. The Army comments are responsive, and no further
comments are required.

The Air Force Director, Learning and Force Development comments are partially
responsive. In response to the final report, we request that the Air Force provide
details on how it plans to emphasize its voting assistance program at all levels of
command (see Table 5).

Although the Inspector General of the Marine Corps nonconcurred, actions taken
and planned by the Marine Corps to emphasize the importance of the Marine
Corps voting assistance program satisfy the intent of the recommendation. No
further comments are required.

8. We recommend that the Service Inspectors General provide the voting
assistance program inspection results to their Service Voting Action Officer
on a continuing basis.

Army Comments. The Army Adjutant General stated that the Army Inspector
General annually provides the results of voting assistance program inspections to
the SVAO.



                                    29
Air Force Comments. The Air Force Director, Learning and Force Development
concurred.

Marine Corps Comments. The Inspector General of the Marine Corps
concurred and stated that the results of inspections and followup and assist visits
will be forwarded to the Marine Corps SVAO.

Evaluation Response. The comments from the Army Adjutant General are
partially responsive. Although the Army states that the inspection results are
annually provided to the SVAO, we believe that inspection results should be
provided to the SVAO on a continual basis. Service Inspectors General
inspection results are a valuable tool that SVAOs can use to identify areas
needing improvement and take corrective action throughout the year. In response
to the final report, we request that the Army reconsider its position and provide
specific details on actions to be accomplished (see Table 5).

We consider the comments from the Air Force and the Marine Corps to be
responsive; no further comments are required.




                                     30
Management Comments Required
    The USD(P&R) and the Services are requested to comment on the items indicated
    with an X in Table 5.

                            Table 5. Management Comments Required
                                                   Concur/    Proposed   Completion
     Recommendation Number          Component     Nonconcur    Action      Date

            1.a. and 1.b.           USD(P&R)         X           X           X

            2.                        Army                       X           X
            3.                        Army           X           X           X
            4.a. and 4.b.             Army                       X           X
            5.                        Army           X           X           X
            8.                        Army           X           X           X

            2.                        Navy           X           X           X
            3.                        Navy           X           X           X
            4.a. and 4.b.             Navy           X           X           X
            6.                        Navy           X           X           X
            7.                        Navy           X           X           X
            8.                        Navy           X           X           X

            3.                      Air Force                                X
            4.a.                    Air Force                    X           X
            4.b.                    Air Force                                X
            5.                      Air Force        X           X           X
            6.                      Air Force                    X           X
            7.                      Air Force                    X           X

            3.                     Marine Corps                              X
            4.a. and 4.b.          Marine Corps                  X           X
            6.                     Marine Corps                              X




                                             31
Appendix A. Scope and Methodology
   The evaluation focused on DoD and Service voting assistance programs for the
   2003 elections. We reviewed laws, policies, and guidance dated from
   August 1981 through October 2003 relating to the absentee ballot process and the
   Service voting assistance programs. We reviewed DoD and Service
   implementing guidance for their voting assistance programs. Additionally, we
   reviewed DoD and Service-level draft guidance that is expected to be issued in
   2004. We assessed the effectiveness of each Service’s voting assistance program
   based on perceptions of uniformed absentee voters and the compliance of
   programs with requirements of the Act and DoD Directive 1000.4. We also
   obtained information relating to the voting assistance program for the 2003
   elections from the FVAP Office and interviewed personnel involved with voting
   assistance programs at the FVAP Office and the Services. In future years, the
   requirement to evaluate DoD voting assistance programs will be accomplished by
   the Deputy Inspector General for Inspections and Policy. To facilitate that
   transition, two inspectors from the Deputy’s office participated in site visits at
   4 of the 10 installations visited.

   For the Army, the Navy, and the Air Force, we selected one large and one small
   overseas installation using population data for active duty personnel provided to
   us by the Defense Manpower Data Center. In CONUS, we selected one location
   from each of the four Services. We selected sites that were not visited during our
   evaluations after the 2000 and 2002 elections. At each location we conducted
   unannounced assessments of the installation’s absentee voting assistance
   program. We also worked with personnel from the Coalition Provisional
   Authority to assess the effectiveness of the absentee voting assistance program for
   uniformed absentee voters in Iraq. However, operational commitments precluded
   us from obtaining information on the effectiveness of voting assistance programs
   in Iraq during 2003. We will suggest that the Deputy Inspector General for
   Inspections and Policy include Iraq in the 2004 evaluation.

   At the selected installations, we used a two-phased approach to assess the voting
   assistance program. The first phase included administering our questionnaire to
   1,125 uniformed absentee voters. A copy of the questionnaire is in Appendix B.
   Nothing in the questionnaire or in the processing of the questionnaires allowed us
   to identify a specific respondent. Information gathered from the questionnaires
   included respondents’ perceptions of command emphasis of the voting assistance
   program, their understanding of the absentee voting process, and problems they
   encountered during the 2003 elections. Many of the questions were based on the
   respondents’ perceptions; the accuracy of those perceptions cannot be validated.
   Questionnaire respondents also participated in discussion groups, where we asked
   them to describe their experiences with the absentee ballot process.

   The second phase of our assessment involved interviewing IVAOs and UVAOs
   regarding the implementation of the voting assistance program. We also
   interviewed the Senior Service Voting Representatives or their SVAO.




                                       32
DoD civilians assigned to the locations we visited were not included in our
evaluation. Additionally, we did not include U.S. citizens residing near the six
overseas locations that we selected for evaluation.

Installations were determined to have effective, partially effective, or ineffective
voting assistance programs. For the 10 installations visited, we established
criteria based on the requirements of DoD Directive 1000.4 and the
2002-2003 DoD Voting Plan. Additionally, we used the results of group
discussions at each location to determine the effectiveness of each installation’s
voting assistance program. Our determination was based on a subjective
evaluation of how well each installation had implemented the voting assistance
program.

Additionally, we visited each Service academy to determine the scope of their
voting assistance programs. During the visits, we interviewed IVAOs or their
representatives and discussed controls over installation absentee voting
procedures, the level of assistance provided by UVAOs, and the degree to which
the voting assistance program had been implemented. We discussed how the
cadets and midshipmen at the academies received voting information and the
extent to which the voting assistance information reached the cadets and
midshipmen. No survey or discussion groups were held with cadets, midshipmen,
or academy UVAOs. Therefore, we cannot make conclusions concerning the
overall effectiveness of the voting assistance programs at the academies.

We performed this evaluation from August 2003 through March 2004 according
to standards implemented by the OIG DoD. Service Inspectors General reports
are required by 10 U.S.C. 1566 to be reflected in the OIG DoD report to Congress
on the effectiveness of and compliance with voting assistance programs. Those
reports are in Appendixes E, F, G, and H. We did not validate the Service
Inspectors General reports.

In a statistical sense, the representativeness of a sample is determined by whether
the method of its selection was random or involved human judgment. Our
samples were judgmental. The results of the questionnaires discussed in this
report are representative only of the questionnaire respondents and should not be
generalized to the entire DoD or any Service. In addition, the numerical results of
questionnaires used in our reviews of the 2000 and 2002 elections should not be
compared with the results of the questionnaires from this evaluation.

We selected a non-statistical, judgmental sample of six overseas installations in
Germany, Iceland, Portugal, Spain, and the United Kingdom and four CONUS
installations. Questionnaires were administered to judgmentally selected units at
each installation. Upon arrival at the installations, we requested information from
the installation point of contact on the total installation population and the
population of each unit at the installation. For the locations visited, we selected a
judgmental sample of units that represented at least 20 percent of the installation
population. We then requested that approximately 100 active duty personnel
from the selected units (34 junior enlisted personnel, paygrades E-1 through E-4;
33 senior enlisted personnel, paygrades E-5 through E-9; and 33 officers) be
available to respond to our questionnaires and participate in our discussion
groups. At all locations, we requested that as many active duty dependents and


                                     33
    UVAOs as possible also respond to our questionnaires and participate in the
    discussion groups. Participation did not always include the full number of
    requested personnel. Participation of dependents was particularly low at all
    installations. The dependent responses are included with the Service member
    responses and are considered part of the uniformed absentee voter population
    throughout the report.

    We also administered questionnaires to UVAOs at eight locations. However,
    some UVAOs told us that they had been appointed shortly before or after our
    unannounced arrival. Because the UVAOs had been recently appointed, they
    were not aware of their responsibilities and had not been trained. Due to the
    anonymous nature of the UVAO questionnaire that we used, we were unable to
    determine which questionnaires represented the UVAOs who had been recently
    appointed. As a result, the UVAO questionnaire results are not included in this
    report because we would not expect newly appointed UVAOs to be
    knowledgeable in the absentee voting process. However, we did conduct
    discussion groups with UVAOs. The results of those discussions are presented in
    this report.

    Analytical Approach. We input each individual questionnaire response into a
    computer data file. The records in the data file also do not identify participating
    personnel. We then transmitted the data file to members of the Quantitative
    Methods Division, OIG DoD for analysis.

    Our overall analytical approach to the responses was based on using the
    information collected with minimal modification. We applied edits to ensure the
    internal consistency of each individual’s responses. We performed the edits and
    the analyses of the responses using the Statistical Analysis System (SAS),
    Version 8.2.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the Defense Manpower Data Center to establish relative sizes of installation
    populations. We also relied on computer-processed data for relative sizes of unit
    populations at installations visited. Because we are not projecting the
    questionnaire results, the accuracy of the databases is not relevant to the
    evaluation results and we did not evaluate their accuracy.
    Use of Technical Assistance. Personnel from the Quantitative Methods
    Division, OIG DoD assisted with questionnaire development and data analysis.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                         34
      Scope of the Review of the Management Control Program. We reviewed
      controls related to the adequacy of policies and the oversight of the
      implementation of Service voting assistance programs to ensure that uniformed
      absentee voters were provided the maximum opportunity to vote. We also
      assessed the Services’ self-evaluation applicable to those controls.

      Adequacy of Management Controls. We identified management control
      weaknesses in Service voting assistance programs as defined by DoD Instruction
      5010.40 regarding compliance with laws and regulations concerning Service
      voting assistance programs. The Services did not have adequate policy and
      oversight to ensure that all uniformed absentee voters were informed and trained
      on all aspects of absentee voting or that they were given the maximum
      opportunity to exercise their right to vote. Because of the limited number of
      locations visited, we are not making a judgment on the materiality of the
      weaknesses identified. A copy of the report will be provided to the senior official
      responsible for management controls in the Office of the USD(P&R), the Army,
      the Navy, the Air Force, and the Marine Corps.

      Adequacy of Management Self-Evaluation. The Army, the Air Force, and the
      Marine Corps did not identify voting assistance programs as an assessable unit.
      The Navy included its voting assistance program as an assessable unit for review
      and relied on required scheduled inspections to assess the program. The Navy
      inspections commented on the weaknesses identified by this evaluation. None of
      the Services identified or reported management control weaknesses in their voting
      assistance programs on their annual statements of assurance.


Prior Coverage
      During the last 5 years, the General Accounting Office (GAO), the OIG DoD, and
      the Department of State have issued five reports discussing the FVAP and
      overseas absentee voting. Unrestricted GAO reports can be accessed over the
      Internet at http://www.gao.gov. Unrestricted OIG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-01-1026, “Elections: Voting Assistance to Military and
      Overseas Citizens Should Be Improved,” September 28, 2001

      GAO Report No. GAO-01-470, “Elections: The Scope of Congressional
      Authority in Election Administration,” March 2001

OIG DoD
      OIG DoD Report No. D-2003-072, “DoD Compliance With the Uniformed and
      Overseas Citizens Absentee Voting Act,” March 31, 2003



                                          35
     OIG DoD Report No. D-2001-145, “Overseas Absentee Ballot Handling in DoD,”
     June 22, 2001

Department of State
     United States Department of State Report No. 01-FP-M-045, “Review of
     Implementation of the Federal Voter Assistance Program,” August 2001




                                      36
Appendix B. Uniformed Absentee Voter
            Questionnaire




                     37
38
39
Appendix C. Commands and Installations Visited

Combatant Commands
U.S. European Command headquarters, Stuttgart-Vaihingen, Germany

Department of the Army
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Human Resources Command, Alexandria, Virginia
   The Adjutant General Directorate, Alexandria, Virginia
U.S. Army, Europe, and Seventh Army, Heidelberg, Germany
1st Personnel Command, Schwetzingen, Germany
98th Area Support Group, Wuerzburg, Germany
   279th Base Support Battalion, Bamberg, Germany*
6th Area Support Group, Stuttgart-Vaihingen, Germany*
Fort Lewis, Washington*
U.S. Military Academy, New York

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
U.S. Marine Corps headquarters, Quantico, Virginia
U.S. Naval Forces Europe headquarters, United Kingdom
Navy Personnel Command, Millington, Tennessee
Naval Air Station Keflavik, Iceland*
Naval Station Rota, Spain*
Naval Air Station Oceana, Virginia Beach, Virginia*
Marine Corps Air Station Beaufort, South Carolina*
U.S. Naval Academy, Annapolis, Maryland
Mid-Atlantic Region Senior Voting Assistance Office, Norfolk, Virginia

Department of the Air Force
Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
Deputy Chief of Staff for Personnel, Washington, D.C.
Air Force Personnel Center, Randolph Air Force Base, Texas
U.S. Air Forces in Europe, Ramstein, Germany
Royal Air Force Lakenheath, United Kingdom*
Lajes Field, Azores, Portugal*
Luke Air Force Base, Arizona*
U.S. Air Force Academy, Colorado Springs, Colorado
*Locations where uniformed absentee voter questionnaires were administered.




                                                 40
Appendix D. Voting Assistance Program Best
            Practices
   Several installations and the Marine Corps SVAO had developed initiatives to
   encourage participation either during 2003 or the upcoming 2004 elections. The
   following are some of those best practices that should assist uniformed absentee
   voters in understanding the absentee voting process.

   2003 Initiatives. At Naval Air Station Keflavik, the IVAO raised voter
   awareness by posting excerpts of the FVAP Voting Information News around the
   installation. During 2003, voting information was also disseminated using the
   Plan of the Day and the Plan of the Week. Additionally, the IVAO distributed
   and displayed posters to publicize his phone number and the FVAP Web site.

   At Luke Air Force Base, a voter registration drive was completed at the end of
   2002 for the 2003 elections. During 2003, the IVAO maintained an installation
   voting information Web site. He encouraged UVAOs to focus on the States
   where their unit members were registered, to include reminding the voters of
   deadlines and election dates. He also encouraged UVAOs to have a voting
   information Web site available at the squadron and unit level. He raised
   awareness of 2003 elections by focusing on States with high military populations.
   Additionally, the IVAO required all VAOs to receive training in 2003 to ensure
   they could properly assist potential voters.

   2004 Initiatives. During our visits to 10 installations and the 3 Service
   academies, some IVAOs stated how they planned to emphasize absentee voting
   and increase awareness for the 2004 Federal election year. The following
   initiatives were not in place during 2003; however, we believe they may result in
   increased awareness and emphasis of Service voting assistance programs for the
   2004 elections.

   At Luke Air Force Base, the IVAO planned to advertise and promote the voting
   assistance program at wing-level events. Additionally, he planned to require units
   to include voting assistance on the unit in-processing checklist. All new
   personnel in a unit will be required to meet the UVAO during in-processing.

   At the Air Force Academy, the IVAO planned to have a voter registration drive
   aimed directly at the cadets. She planned to use the base newspaper to motivate
   voters to register and vote, to provide information about upcoming elections, and
   to publicize the voting information line and relevant Web sites. In addition, she
   planned to publicize the voting assistance program and voting information using
   the public announcement system at sporting events, such as football games.

   The Marine Corps Voting Office initiated the design, development, and
   production of a film clip that emphasizes the importance of voting. The clip
   shows imagery of the Capitol building and a Marine Corps voting slogan, “It
   matters to you who roams these halls,” followed by footage of Marine Corps
   missions in CONUS and Iraq, and ending with the same Capitol building scene
   and the slogan, “Our Country, Our Leaders, Our Choice, VOTE.” The film clip


                                       41
will run after the playing of the national anthem in Marine Corps movie theaters,
on the Marine Corps Web site, and on local military television stations beginning
April 15, 2004. The same imagery was used in the production of Marine Corps
posters and installation banners emphasizing the Marine Corps voting assistance
program.




                                    42
Appendix E. Department of the Army Inspector
            General Report




                      43
44
45
Appendix F. Department of the Navy Inspector
            General Report




                      46
47
48
Appendix G. Department of the Air Force
            Inspector General Report




                      49
50
51
52
53
54
Appendix H. Marine Corps Inspector General
            Report




                      55
56
57
58
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Principal Deputy Under Secretary of Defense for Personnel and Readiness
  Director, Federal Voting Assistance Program
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Commander, U.S. Army, Europe, and Seventh Army
Inspector General, Department of the Army
Superintendent, U.S. Military Academy
Auditor General, Department of the Army
The Adjutant General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters
Superintendent, U.S. Naval Academy
Marine Corps Deputy Commandant for Manpower and Reserve Affairs
Commander, Navy Personnel Command
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Inspector General of the Air Force
Superintendent, U.S. Air Force Academy
Auditor General, Department of the Air Force
Director of Personnel Resources

Combatant Commands
Commander, U.S. European Command
Commander, U.S. Central Command
Inspector General, U.S. Joint Forces Command




                                         59
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Military Personnel, Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Military Personnel, Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        60
Department of the Army Comments




                    61
62
63
U.S. Army, Europe, and Seventh Army
Comments




                     64
65
66
67
68
     Final Report
      Reference




     Enclosures
     omitted




69
70
Department of the Air Force Comments




                     71
72
Marine Corps Comments




                   73
74
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the OIG DoD who contributed to the report are listed below.
Shelton R. Young
Michael A. Joseph
Timothy J. Tonkovic
Elizabeth A. Denny
Robert J. Hanlon
Anna P. Martin
Beverly L. Cornish
Mary J. Gibson
Danny O. Hatten
Mary Ann Hubbell
Carmen J. Malone
H. David Barton
Dharam V. Jain
Kndasamy Selvavel
Elizabeth L.N. Shifflett
